                              NATIONAL SCIENCE FOUNDATION
                I                 4201 WILSON BOULEVARD
                                  ARLINGTON, 'VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL                     2 1 September 2000


          MEMO
           -1
               TO: File



            ,
          SUBJECT: Case Closeout, #I0009001 7




          2: The allegation was investigated by the Division of Information Services
            ' (DIS) and the Office of Inspector General.
          3. The    SUBJECT,^^^^                 terminated on August 3,2000. No m h e r
           , action is being taken by OIG at this time.

          4. This investigation is closed.
